Department of Homeland Security
   Ofﬁce of Inspector General

    DHS Grants Used for Mitigating Risks to 

            Amtrak Rail Stations 


                  (Redacted)
 





OIG-11-93                              June 2011
                                                                Office ofInspector
                                                                Offce of Inspector General

                                                                U.S. Department
                                                                U.S. Department of Homeland
                                                                                   Homeland Security
                                                                Washington, DC
                                                                Washington, DC 20528




                                                                Homeland
                                                                Security
                             JUN
                             JUN 22'1  2011
                                   '7 2011


                                            Preface

The    Department
The Department of 
                  Security (DHS)
                       of Homeland Security   (DHS) Office
                                                      Offce ofInspector
                                                             ofInspector General
                                                                           General (OIG)
                                                                                    (01G) was
established by the  the Homeland
                        Homeland Security
                                   Security Act
                                            Act 0/2002
                                                 of2002 (Public Law 107-296) by amendment
to the Inspector General Act of    of 1978.
                                      1978. This
                                            This is
                                                  is one
                                                     one of
                                                         of a series of
                                                                     of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency,
effciency, and   and effectiveness
                     effectiveness within
                                   within the
                                          the department.
                                               department.



This report addresses the strengths and weaknesses of    of the Transportation Security
Administration's assistance
Administration's    assistance provided
                                 provided to
                                           to Amtrak
                                              Amtrak for
                                                     for mitigating
                                                         mitigating known
                                                                     known vulnerabilities
                                                                            vulnerabilities at
                                                                                            at
          rail stations.
high-risk rail stations. It
                          It is
                             is based on interviews with employees
                                                          employees and
                                                                      and officials
                                                                           offcials of
                                                                                    of relevant
agencies and institutions, direct observations, and a review of  of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
                        discussed in draft
office, and have been discussed       draft with
                                            with those
                                                 those responsible
                                                        responsible for
                                                                    for implementation.
                                                                        implementation. We
trust this report
           report will
                  wil result in more effective,  effcient, and economical operations.
                                      effective, efficient,                 operations. We
express our appreciation to all of
                                 of those who contributed to the preparation ofof this report.

                                          (J~i~
                                          av~ iLL
                                        Anne L. Richards
                                        Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2
 


Results of Audit ...................................................................................................................5 


DHS Did Not Ensure That Amtrak Directed Grant 

  Funds to Highest Known Rail Station Vulnerabilities...................................................5 


        Grant Recipient Coordination .....................................................................................5 

        Rail Station Vulnerabilities Remain ...........................................................................6 

        Corrective Action Planning.........................................................................................8 

        Lower Priority Projects Approved ..............................................................................9 

        TSA Grant Project Decision and Approval Process Not Documented .....................10 

        Limited TSGP Funds Expended on High-Risk Mitigation ......................................11 

        Other Challenges Impacting Rail Station Vulnerabilities .........................................14 

        Conclusion ................................................................................................................14 


Recommendations..............................................................................................................15
 


Management Comments and OIG Analysis ......................................................................15 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................18 

     Appendix B:           Management Comments to the Draft Report .......................................20 

     Appendix C:           Photos of Some Remaining Vulnerabilities .........................................25 

     Appendix D:           Major Contributors to this Report........................................................26 

     Appendix E:           Report Distribution ..............................................................................27 


Abbreviations
     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     GAO                   U.S. Government Accountability Office 

     IPRP                  Intercity Passenger Rail Program 

     OMB                   Office of Management and Budget 

     OIG                   Office of Inspector General 

     SAIC                  Science Applications International Corporation 

     TSA                   Transportation Security Administration 

     TSGP                  Transit Security Grant Program
 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 Amtrak provides passenger rail service over approximately 22,000
                 miles in 46 states and the District of Columbia. Amtrak operates
                 more than 500 stations and transports about 27 million passengers
                 every year, using infrastructure including tunnels, bridges, and
                 major rail stations. Passenger rail stations are attractive terrorist
                 targets because of the large number of people in a concentrated
                 area. We determined whether the Department of Homeland
                 Security ensures that recipients of the Transit Security Grant
                 Program mitigate high-priority security vulnerabilities at Amtrak
                 rail stations and whether they coordinate risk mitigation projects to
                 prevent duplication and avoid uneconomical use of grant funds.

                 Grant recipients, such as Amtrak, transit agencies, and state and
                 local authorities, coordinate risk mitigation projects at high-risk
                 rail stations. However, Amtrak is not always using grant funds to
                 implement mitigation strategies at highest risk rail stations, in
                 terms of casualties and economic impact. Amtrak has not
                 mitigated critical vulnerabilities reported in risk assessments.
                 These vulnerabilities remain because the Transportation Security
                 Administration (TSA):

                     �	 Did not require Amtrak to develop a corrective action plan
                        addressing its highest ranked vulnerabilities;
                     �	 Approved Amtrak investment justifications for lower risk
                        vulnerabilities; and
                     �	 Did not document roles and responsibilities for the grant
                        award process.

                 As a result, some rail stations and the traveling public may be at
                 risk to a potential terrorist attack. TSA concurred with our two
                 recommendations and has initiated corrective actions.




              DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                         Page 1 

Background
                Since 2004, bombings of the Madrid and Mumbai rail systems and
                the London subway have demonstrated the critical need to protect
                rail infrastructure from terrorist attacks. Passenger rail stations are
                especially attractive terrorist targets because of the large number of
                people in a concentrated area. The largest of America’s rail
                stations are intermodal transportation terminals with high
                passenger and cargo volumes. A terrorist attack at these facilities
                could lead to significant loss of life and economic disruption.

                The Rail Passenger Service Act of 1970, Public Law 91-518,
                established the National Railroad Passenger Corporation - Amtrak.
                Amtrak runs intercity passenger rail service over approximately
                22,000 miles in 46 states and the District of Columbia, operating
                more than 500 stations and transporting about 27 million
                passengers every year. While the Department of Transportation
                owns Amtrak, the majority of mass transit stations in this country
                are owned and operated by state and local government and private
                industry. Amtrak infrastructure consists of various critical assets
                and key resources, including tunnels, bridges, and several major
                rail stations.

                The Aviation and Transportation Security Act of 2001, Public Law
                107-71, designates the TSA responsible for security in all modes of
                transportation. It also makes TSA responsible for coordinating
                domestic transportation, including aviation, rail, and other surface
                transportation. The act identifies TSA as the lead federal agency
                for determining the security priorities eligible for federal grant
                funding and developing the criteria for evaluating applications.

                The Department of Homeland Security (DHS) has taken steps to
                manage risk and strengthen our Nation’s rail and transit systems
                by:

                     �    Providing funding to state and local partners;
                     �    Training and deploying manpower;
                     �    Providing assets for high-risk areas;
                     �    Developing and testing new technologies; and




             DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                        Page 2 

        �	 Performing security assessments of systems across the
           country.

   DHS distributes billions of dollars to states, territories, urban areas,
   and transportation authorities, including Amtrak, under grant
   programs to strengthen national preparedness capabilities and
   protect critical infrastructure. The purpose of the DHS Transit
   Security Grant Program (TSGP) is to create a sustainable, risk-
   based effort to protect critical surface transportation infrastructure
   and the traveling public from acts of terrorism, major disasters, and
   other emergencies. A subcomponent of the TSGP is the Intercity
   Passenger Rail Program (IPRP), a security grant program designed
   exclusively for Amtrak.

   Since 2005, the TSGP has provided more than $1 billion in grant
   funding to Amtrak and passenger rail transit agencies to protect
   critical transportation infrastructure, including Amtrak rail stations.
   Specifically, the TSGP including the IPRP provided $97 million to
   Amtrak and $1.4 billion to transit agencies. As part of Amtrak
   grants, the IPRP funded several risk assessments of Amtrak
   facilities, including rail stations and other infrastructure. The
   assessments provided Amtrak with countermeasures that could
   reduce risks to the stations.

   Between 2005 and 2008, the Science Applications International
   Corporation (SAIC) conducted risk assessments of Amtrak
   facilities, assets, and infrastructure. SAIC documented the
   vulnerabilities of Amtrak infrastructure including rail stations and
   recommended mitigation actions. SAIC charged about
   $2.3 million for these assessments.

   Amtrak is spending an additional $5.5 million to corroborate
   subassessments to the SAIC findings. The Lawrence Livermore
   National Laboratory and OceanIT conducted site-specific analyses
   of infrastructure vulnerabilities. These included blast analyses of
   high-risk stations and analyses of the effects of a chemical or
   biological attack on heating, ventilation, and air conditioning
   systems.




DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                           Page 3 

   TSA and the Federal Emergency Management Agency (FEMA)
   are responsible for administering and overseeing the TSGP and
   IPRP. These two agencies work together to develop the annual
   TSGP guidance and application kits. These kits provide Amtrak
   and transit agencies with formal guidance and application materials
   to apply for funding under the TSGP and IPRP. The kits also
   describe the TSA and FEMA program management roles and
   responsibilities:

       �	 TSA provides rail system subject matter expertise within
          DHS and determines the primary security planning for the
          TSGP and IPRP. TSA is the lead agency in crafting all
          selection criteria associated with the application review
          process.

       �	 FEMA is the lead for designing and operating the
          administrative mechanisms to manage the department’s
          core grant programs, including the TSGP and IPRP.
          FEMA is also responsible for ensuring compliance with all
          relevant federal grant management requirements and
          providing grant management tools and controls to support
          the TSGP and IPRP.

   TSA and FEMA use a cooperative agreement approach to approve
   grant projects funded through the TSGP and IPRP. As part of the
   cooperative agreement process, Amtrak meets with TSA and
   FEMA representatives to develop Investment Justifications that
   align with TSGP and IPRP priorities. According to TSGP grant
   guidance, the cooperative agreement process is valuable because it
   provides greater flexibility and allows TSA to work directly with
   transit agencies to quickly adapt to changes as situations arise
   during the grant cycle.




DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                           Page 4 

Results of Audit 

     DHS Did Not Ensure That Amtrak Directed Grant 

     Funds to Highest Known Rail Station Vulnerabilities 

          DHS grant recipients, such as Amtrak, transit agencies, and state and local
          authorities, coordinate risk mitigation projects at Amtrak high-risk rail
          stations to prevent duplication and avoid uneconomical use of grant funds.
          However, at the four rail stations we visited, Amtrak did not mitigate
          critical vulnerabilities reported in DHS-funded risk assessments.
          Although many factors contributed to Amtrak’s unaddressed station
          vulnerabilities, the primary causes were that TSA:

                     �	 Did not require Amtrak to develop a formal corrective
                        action plan documenting how it would address its highest
                        ranked identified vulnerabilities,
                     �	 Approved Amtrak investment justifications for lower risk
                        vulnerabilities, and
                     �	 Did not document roles and responsibilities for the grant
                        project approval process.

          As a result, some rail stations and the traveling public may be at a greater
          risk to a potential terrorist attack.

                 Grant Recipient Coordination

                 Grant recipients have demonstrated coordination activities to
                 ensure economical use of grant funds. For example, DHS
                 encourages high-risk regions to form Regional Transit Security
                 Working Groups. These working groups include eligible transit
                 agencies, law enforcement agencies, and Amtrak, if stations exist
                 in the region. The Regional Transit Security Working Groups
                 work with each other and with TSA to identify projects that DHS
                 grants can fund.

                 At the station level, Amtrak employs Station Action Teams
                 comprising of Amtrak Police, local Amtrak managers, local
                 property management, adjacent facility owners, and transit and
                 local police. The Station Action Team Coordinator facilitates the




              DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                         Page 5 

   formulation of strategies to minimize the effects of a threat to that
   station in conjunction with other team members, including those
   receiving DHS grant funds.

   Rail Station Vulnerabilities Remain

   TSA and FEMA did not ensure that Amtrak used TSGP funds to
   implement the more critical countermeasures the DHS-funded
   assessments recommended. Between 2005 and 2008, IPRP funded
   $7.8 million in assessments to help Amtrak strengthen rail security.
   TSA and FEMA explained that Amtrak uses these assessments to
   propose security projects for the IPRP. However, we visited four
   high-risk rail stations and observed that Amtrak did not take
   actions to mitigate some of the more critical vulnerabilities the
   assessments identified as early as 2006.

   For example, at one station (see Figure 1), we observed that a
   terrorist could access



                                The 2006 assessment recommended that
   Amtrak                                        to mitigate this risk.




DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                           Page 6 

            Figure 1:




   At another station (see Figure 2), access to

             An assessment recommended that Amtrak replace the
                                                to mitigate this
   risk.

            Figure 2:




DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                           Page 7 

                         Corrective Action Planning

                         TSA did not require Amtrak to develop a formal corrective action
                         plan for mitigating station vulnerabilities identified in the
                         assessments. TSA set funding priorities in the annual grant
                         guidance 1 but did not require Amtrak to create a corrective action
                         plan that would prioritize mitigating the identified high-risk station
                         vulnerabilities, establish milestones, or estimate project costs.
                         Office of Management and Budget (OMB) Circular A-123,
                         Management's Responsibility for Internal Control, directs
                         management to establish and maintain internal controls, including
                         policies and procedures, to achieve the objectives of effective and
                         efficient operations. Further, U.S. Government Accountability
                         Office (GAO) guidance indicates that a strategic plan should
                         include clear and concise goals and objectives that identify
                         resource issues. The plan should also address risk-related issues
                         that are central to the agency’s overall mission. 2

                         Amtrak developed a project prioritization list, known as the
                         “quilt,” and a general strategy to reduce risk at its top 16 stations.
                         The quilt incorporates the SAIC assessment rankings of Amtrak’s
                         assets, such as rail stations, bridges, and tunnels. The quilt does
                         not incorporate specific corrective measures the assessments
                         recommended. Rather, it captures broad categories of remediation.
                         For example, the quilt lists categories such as “Hardening Tool Kit
                         (Fencing/Lighting)” and “Bollards/Planters,” but does not specify
                         where Amtrak should place the bollards or planters.

                         Amtrak’s general strategy for risk reduction directed resources
                         toward combating the highest risk facilities. Amtrak expanded the
                         strategy, known as its “16+1 Station Strategy,” to 16 stations after
                         SAIC completed assessments of Amtrak’s West Coast operations. 3
                         Like the quilt, the Station Strategy does not provide the specific
                         mitigation efforts to be taken at the 16 high-risk stations. It also




1
  TSA did not become involved in TSGP and the IPRP until 2006. TSA did not participate in the
development of the 2005 guidance.
2
  GAO testimony – 07-583T, Federal Strategy and Enhanced Coordination Needed to Prioritize and Guide
Security Efforts, March 7, 2007
3
  The “+1” refers to other Amtrak assets such as electrical stations, bridges, and tunnels.



                     DHS Grants Used for Mitigating Risks to Amtrak Rail Stations

                                               Page 8
   does not include cost estimates, timeframes, or alternatives to
   mitigation obstacles beyond Amtrak’s control.

   The TSGP grant guidance kits did not require Amtrak to mitigate
   the assessment vulnerabilities as a top priority. The 2005 guidance
   kit indicates that up to 30% of fiscal year 2005 funds would be
   available to assist Amtrak with its most pressing security needs in
   its Northeast Corridor and Chicago “as identified through
   previously conducted site-specific assessments.” Up to 50% of the
   fiscal year 2006 funds were available for the same purpose and
   expanded to “high priority projects” identified in assessments of its
   West Coast service area. However, neither guidance kit required
   Amtrak to expend funds on the identified vulnerabilities.

   Beginning with fiscal year 2007, the kits include a section titled
   “Funding Priorities,” which identify DHS’s specific priorities for
   that grant year. However, there is no indication of which are the
   highest priorities. From fiscal years 2007 through 2010, the
   guidance identified a funding priority which was “Protection of
   other high risk/high consequence assets and systems that have been
   identified through system wide risk assessments.”

   Lower Priority Projects Approved

   Amtrak faces obstacles beyond its control when undertaking some
   security projects. For example, some of the recommendations in
   the risk assessments require Amtrak to make modifications in or
   around a station. Amtrak does not own all of its stations and must
   obtain permission from other parties to make the modification.
   Amtrak cannot always obtain permission to make the
   modifications. Projects may also require environmental and
   historic approvals or are subject to American with Disability Act
   restrictions.

   When addressing these obstacles, TSA’s cooperative agreement
   approach permits Amtrak to use IPRP funds on projects that may
   not be the highest priority but are easier to complete. Beginning
   with the 2007 grant cycle, TSA began to use a cooperative
   agreement approach to approve TSGP and IPRP projects. This
   approach allows Amtrak to focus on remediation projects over




DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                           Page 9 

                          which it has control. For example, the Lawrence Livermore
                          National Laboratories analysis recommended hardening the air
                          intake vents at one station because the heating ventilation and air
                          conditioning system is vulnerable. The station’s landlord
                          prevented Amtrak from implementing remediation to the vents.
                          Using the cooperative agreement approach, TSA allowed Amtrak
                          to use IPRP funds for other projects at the station, such as
                          upgrading the closed-circuit television system.

                          TSA Grant Project Decision and Approval Process Not
                          Documented

                          TSA has limited internal procedures documenting how it manages
                          the TSGP and IPRP project decision and approval process. OMB
                          Circular A-123 says that policies and procedures are tools to help
                          managers achieve results and safeguard the integrity of their
                          programs. According to GAO’s Standards for Internal Controls, 4
                          an agency’s internal control activities should include appropriate
                          policies and procedures governing each of its activities.
                          Additionally, control activities should include written
                          documentation that covers an agency’s significant transactions and
                          events. Further, they should identify its activities in documents
                          such as management directives and administrative policies.

                          TSA officials said the following two documents contain the only
                          documented procedures that describe how the agency prioritizes
                          and approves projects the TSGP and IPRP funds:

                              �	 The annual grant guidance and application kits provide an
                                 overview of the grant program and the required application
                                 materials. The guidance is intended for grant recipients and
                                 does not formally document TSA’s internal policies and
                                 procedures for setting grant priorities or evaluating
                                 investment justifications.

                              �	 TSA’s presentation dated March 2007, “FY 2007 Transit
                                 Security Grant Program: Tier I Cooperative Agreement
                                 Approach,” describes the process as a series of meetings,




4
    GAO-01-1008G, Internal Control Management and Evaluation Tool, August 2001.



                       DHS Grants Used for Mitigating Risks to Amtrak Rail Stations

                                                 Page 10
                             �	 which typically result in a proposed project concept list.
                                This is not official TSA policy that would hold the agency
                                accountable for the process.

                         Neither the guidance kits nor the presentation specifies how TSA
                         sets grant priorities or how it will ensure that it approves only
                         projects that address stated priorities.

                         Limited TSGP Funds Expended on High-Risk Mitigation

                         As of December 31, 2010, Amtrak had expended only 16% of
                         IPRP funds TSA approved to address some of the more critical
                         vulnerabilities the assessments identified. TSA’s cooperative
                         agreement approach and factors outside of Amtrak’s control 5 have
                         delayed Amtrak’s ability to spend these funds. Amtrak cannot
                         expend IPRP funds on projects until it receives TSA’s and
                         FEMA’s approval. However, a significant amount of time can
                         pass between the grant award and project approval dates under the
                         cooperative agreement approach. Therefore, funds that could
                         address some of the more critical vulnerabilities at high-risk
                         stations remain unexpended.

                         Station-hardening measures are more critical mitigation efforts
                         because they can prevent or mitigate the impact of terrorist attacks,
                         especially from vehicle-borne improvised explosive devices. They
                         can also protect Amtrak passengers, employees, and critical
                         infrastructure assets integral to the safety and stability of the
                         national passenger rail system. These measures include bollards,
                         fixed and/or retractable barriers, planters, gate checkpoints,
                         lighting and fencing, and closed circuit television systems.

                         From 2005 to 2010, TSA and FEMA approved 56 IPRP projects
                         for Amtrak. Nine of the 56 projects totaling $29.5 million
                         implement station-hardening measures. The remaining 47
                         projects, accounting for $67.5 million, are for security initiatives
                         that include employee training, expansion of canine teams, bridge




5
 Amtrak may need to obtain approval from a State Homeland Preservation Office in order to comply with
FEMA’s Office of Environmental and Historical Preservation project review.



                      DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                                Page 11 

   hardening, and further assessments of station vulnerabilities. See
   Figure 3 for the types of approved security IPRP projects.
   Figure 3: Approved Amtrak Security Projects, FY 2005-2010

                           Rail Station Hardening,
                                 $29,486,265                                      Other Infrastructure
                                                                                 Hardening, $12,164,000




           Management &                                                                    SAT Tool Kits, $13,539,062
       Administration, $423,329
             Drills or Exercises,
                  $3,652,328

        Interoperability, $3,653,555


                      Other, $4,217,091
                                                                                     Training & Public
                    Planning & Assessments,                                        Awareness, $10,158,780
                           $4,225,000
                                Intelligence, $4,254,115
                                                                   Canine, $6,423,472
                                           Equipment, $4,829,145




   As of December 31, 2010, Amtrak had expended only $4.9 million
   (16%) of the $29.5 million approved for rail station-hardening
   projects. Most of the unexpended funds are for six projects: two
   each from fiscal years 2008 and 2009, and one each from fiscal
   years 2007 and 2010. Table 1 lists the status of funds for the nine
   rail station-hardening projects.




DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                          Page 12 

                         Table 1: Funds Allocated to Rail Station Hardening Projects

                          Grant       Investment Justification              Amount         Amount
                          Year        Project Description                   Approved      Expended
                          2005        Technical Support Working            $ 873,765     $ 873,765
                                      Group
                          2007        Camera Consolidation and
                                      Video Management                       3,000,000    2,873,943
                          2007        CCTV
                                                                             1,000,000      782,966
                          2007
                                      Hardening                              1,350,000          67,900
                          2008        Access Control                         1,125,000               0
                          2008        CCTV and Communications
                                                                             3,787,500      257,128
                          2009        CCTV and Video Analytics
                                                                             4,800,000              0
                          2009        Station and Facility
                                      Hardening                              5,350,000              0
                          2010        Infrastructure Protection
                                                                             8,200,000            0
                          Total                                            $29,486,265   $4,855,702


                         TSA’s cooperative agreement approach contributed to significant
                         delays in approving rail station-hardening projects. GAO
                         reported 6 the cooperative agreement process was a factor for why
                         transit agencies expended only 3% of 2006 to 2008 TSGP funds.
                         FEMA awarded the 2009 IPRP grant to Amtrak on July 31, 2009;
                         however, TSA did not approve the investment justifications for the
                         two rail station projects until July 29, 2010. The approach requires
                         a back-and-forth discussion between Amtrak and TSA officials
                         that can take many months to complete. TSA officials explained
                         outside factors affected approval of this particular investment
                         justification. For example, Amtrak pulled approved projects back
                         as a result of changes in security priorities and leadership. The
                         TSA officials indicated that the approval process for the two
                         station projects was timely once they received a final investment
                         justification from Amtrak.




6
 GAO-09-491 Transit Security Grant Program – DHS Allocates Grants Based on Risk, but Its Risk
Methodology, Management Controls, and Grant Oversight Can Be Strengthened, June 2009.



                      DHS Grants Used for Mitigating Risks to Amtrak Rail Stations

                                                Page 13
                            Other Challenges Impacting Rail Station Vulnerabilities

                            During the course of audit fieldwork, TSA and FEMA had not
                            finalized a memorandum of understanding for managing the TSGP
                            and IPRP. Both GAO and the OIG had previously recommended
                            that TSA and FEMA finalize such a memorandum. As discussed
                            earlier, TSA does not have documented procedures for its role in
                            the grant award process. Such procedures would help the agency
                            with closing prior GAO and OIG recommendations 7 for TSA and
                            FEMA to finalize a memorandum of understanding or similar
                            document defining their roles and responsibilities for awarding and
                            managing grants. According to a 2009 GAO report on TSGP,

                                     “Articulating roles and responsibilities for managing the
                                     TSGP could strengthen TSA and FEMA’s ability to ensure
                                     that activities, processes, and resources are aligned to
                                     achieve a common outcome and ensure smooth
                                     coordination during the grant process.” 8

                            TSA and FEMA finalized a memorandum of understanding for the
                            TSGP program in March 2011. This memorandum should help to
                            strengthen the implementation, administration, oversight, and
                            internal controls of the TSGP.

                   Conclusion

                            Each year, DHS provides millions of dollars to Amtrak and transit
                            agencies to reduce risk and strengthen the Nation’s rail and transit
                            systems. TSA can do more to ensure that Amtrak uses grant funds
                            to protect rail stations from terrorism. TSA should work with
                            Amtrak to develop a corrective action plan to mitigate potential
                            gaps in security at Amtrak’s high-risk rail stations. Without a
                            comprehensive plan for addressing identified vulnerabilities and
                            documented internal procedures for awarding TSGP and IPRP
                            grants and approving projects, the traveling public remains at risk
                            for a potential terrorist attack at Amtrak’s high-risk stations.




7
    Ibid.; OIG-10-69, Efficacy of DHS Grant Programs, March 22, 2010.

8
 GAO-09-491, Transit Security Grant Program: DHS Allocates Grants Based on Risk, but Its Risk
Methodology, Management Controls, and Grant Oversight Can Be Strengthened, June 2009, p. 25.



                         DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                                   Page 14 

Recommendations
      We recommend that the Assistant Administrator, Transportation
      Security Network Management:

      Recommendation #1: Require the Transportation Sector Network
      Management, Mass Transit and Passenger Rail Division, to work
      closely with Amtrak to establish a corrective action plan that
      ensures decisions to fund Amtrak rail station remediation projects
      focus on mitigating the highest vulnerabilities identified by
      previous risk assessments. The plan should include the following:

           �	 Preliminary strategies and designs specifying the
              identification and commitment of all interested parties, to
              be presented during the grant application process to
              facilitate prompt mitigation efforts,
           �	 Details on the amount of funding needed to address the
              most critical vulnerabilities, and
           �	 Milestones for the timely approval of mitigation projects.

      Recommendation #2: Ensure that the Transportation Sector
      Network Management, Mass Transit and Passenger Rail Division,
      creates and reports internal procedures that describe how the
      agency will carry out its roles and responsibilities in the grant
      award process for ensuring that Amtrak and other grant recipients
      address the highest priority security vulnerabilities.

Management Comments and OIG Analysis
      DHS concurred with both recommendations in the report and TSA
      has already begun to implement actions to address the
      recommendations. We consider the recommendations unresolved
      and open. A summary of the agency’s response follows.

      TSA Comments to Recommendation #1:

      TSA Concurs: DHS advised the OIG that forthcoming regulations
      will require Amtrak to develop a formal security plan with
      corrective actions. TSA’s Office of Transportation Sector
      Network Management, Mass Transit and Passenger Rail Security
      Division, is currently engaged with Amtrak to develop a
      comprehensive security plan including corrective actions. The
      regulation, required by the Implementing Recommendations of the
      9/11 Commission Act of 2007 (Public Law 110-53), will serve as



   DHS Grants Used for Mitigating Risks to Amtrak Rail Stations

                             Page 15
   the basis for DHS’s coordination with Amtrak in developing their
   system wide security plan. TSA will also include, as part of our
   internal procedures, performance metrics to ensure the timely
   approval of Amtrak security projects.

   Until the regulation is finalized, DHS will review critical
   vulnerabilities with Amtrak throughout each grant cycle to
   determine their feasibility for funding, including reviewing and
   discussing mitigation options for the assets on Amtrak’s security
   “quilt.” Also, TSA began conducting a Baseline Assessment for
   Security Enhancement review for the entire system in March 2011.
   Through this review, DHS will engage in strategic planning and
   corrective action discussions with Amtrak for mitigating critical
   vulnerabilities.

   OIG Analysis:

   The OIG recognizes TSA’s efforts to issue a security plan
   regulation to assist the coordination with Amtrak in developing
   their system wide security plan. TSA’s new performance metrics
   should also help the timely approval of Amtrak security projects.
   The OIG needs to obtain and review the requirements for
   corrective action plans to ensure decisions to fund Amtrak rail
   station remediation projects focus on mitigating the highest
   vulnerabilities identified by previous risk assessments. This
   recommendation will remain unresolved until we receive the
   corrective action plan and identification of the responsible
   officials. The recommendation will remain open until we receive
   all additional information on the formal security plan with
   corrective actions, future requirements, and performance metrics to
   ensure the timely approval of Amtrak security projects.

   TSA Comments to Recommendation #2:

   TSA Concurs: FEMA and TSA finalized a Memorandum of
   Agreement in March 2011, outlining the roles and responsibilities
   of each agency in managing surface transportation grant programs.
   TSA will use the Memorandum of Agreement as a starting point in
   creating internal procedures to clearly document how TSA will
   carry out its roles and responsibilities.




DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                          Page 16 

   OIG Analysis:
   �
   FEMA and TSA will identify and document how the agencies will
   carry out its roles and responsibilities in the grant award process.
   This will assist both agencies for ensuring that Amtrak and other
   grant recipients address the highest priority security vulnerabilities.
   This recommendation will remain unresolved until we receive and
   review the corrective action plan for internal procedures to clearly
   document how TSA will carry out its roles and responsibilities.
   We will close the recommendation once the roles and
   responsibilities are documented sufficiently to address the areas of
   concern identified in this report.




DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                          Page 17 

Appendix A
Purpose, Scope, and Methodology

                   The objective of our audit was to determine whether DHS ensures
                   that recipients of the TSGP and IPRP mitigate high-priority
                   security vulnerabilities at Amtrak rail stations and whether they
                   coordinate risk mitigation projects to prevent duplication and avoid
                   uneconomical use of grant funds.

                   We reviewed federal legislation impacting the TSGP and IPRP,
                   including the Aviation and Transportation Security Act of 2001,
                   the Homeland Security Act of 2002, and the Implementing
                   Recommendations of the 9/11 Commission Act of 2007. We
                   reviewed GAO and DHS OIG reports and testimony to identify
                   prior findings and recommendations related to the TSGP and IPRP.

                   To determine whether the TSA and FEMA implemented the TSGP
                   and IPRP in accordance with policies and procedures, we reviewed
                   Amtrak's decision meeting minutes and approved project
                   investment justifications, and compared them with Amtrak’s
                   project prioritization list. We determined the amounts of IPRP
                   funds expended for Amtrak’s fiscal years 2005-2010 IPRP projects
                   as of December 31, 2010 by obtaining and reviewing Categorical
                   Assistance Progress Reports for fiscal years 2005-2010, and
                   Federal Railroad Administration drawdown data for fiscal years
                   2008-2010.

                   To determine whether grant recipients coordinate, we interviewed
                   representatives from the State Administrative Agencies for New
                   York City and the National Capitol Region, and attended a
                   Philadelphia Regional Transit Security Working Group meeting in
                   Camden, NJ. We reviewed grant project descriptions for fiscal
                   years 2007-2008 for the State Homeland Security Program, Urban
                   Areas Security Initiative Program, and the TSGP, and compared
                   the projects with Amtrak’s projects to identify duplicative efforts
                   funded by the various grant programs.

                   We interviewed officials from Amtrak’s Police Department and
                   Financial Planning Office to obtain their perspective on the TSGP
                   grant application, award, and oversight process. We identified
                   their procedures for coordinating efforts with state and local grant
                   recipients and the DHS agencies. We also identified the




                DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                          Page 18 

Appendix A
Purpose, Scope, and Methodology

                   challenges Amtrak faces in prioritizing how to use grant funds to
                   secure rail stations.

                   To identify roles and responsibilities in the grant award process,
                   we interviewed personnel from TSA’s Transportation Sector
                   Network Management and FEMA’s Grant Programs Directorate.
                   We reviewed TSA and FEMA policies, procedures, and guidance
                   related to evaluating, awarding, and monitoring grant programs to
                   determine how the agencies manage the TSGP and IPRP. We
                   reviewed DHS annual grant guidance and application kits for fiscal
                   years 2005-2010 to determine if TSA and FEMA provided clear
                   guidance to Amtrak on the purpose and priority for use of IPRP
                   grant funds.

                   We obtained and reviewed analyses that the Science Applications
                   International Corporation performed during 2005 to 2008 on
                   Amtrak’s assets. We obtained a briefing on the results of
                   Lawrence Livermore National Laboratories assessments conducted
                   at the four locations we visited:

                                    We used the assessment results to identify the
                   vulnerabilities and recommendations for risk remediation at these
                   four stations. The method of selecting our locations prevents us
                   from projecting the findings on a national level, but one should not
                   discount our findings since the rail stations visited are locations
                   with a high number of travelers.

                   We conducted this performance audit from September 2010 to
                   February 2011 pursuant to the Inspector General Act of 1978, as
                   amended, and according to generally accepted government
                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based
                   upon our audit objectives. We believe that the evidence obtained
                   provides a reasonable basis for our findings and conclusions based
                   upon our audit objectives.




                DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                          Page 19 

Appendix B
Management Comments to the Draft Report



                                                                          It.S. Dt:pllrlrncnt   or HurncllilmJ St:curity
                                                                                            Wllshinglun. DC 20528




                                                                             Homeland
                                                                             Security
                                              JUN 0B 2011


    MEMORANDUM FOR:                        Anne L. Richards
                                           Assistant Inspector General for Audits
                                           U.S. Department of Homeland Security (DHS)

                                                                () 11   /;- ,
                                     c~
    FROM:                                        S. Pistol
                                           .    inistrat        'P~~
                                           1 ranspon Ion Security Administration

                                       iflJ) Craig Fugate
                                       ~dministrator
                                           Federal Emergency Management Agency

    SUBJECT:                               Response to Draft Report, DHS Grants Used
                                           for Mitigating Risks to Amtrak Rail Stations

    This memorandum constitutes the Transportation Security Administration's (TSA) and the
    Federal Emergency Management Agency's (FEMA) response to the DHS Office of the Inspector
    General (OIG) draft report entitled DHS Grants Usedfor Mitigating Risks to Amtrak Rail
    Stations, dated March 20 I I .

    In July 2010, the OIG initiated a review to determine the effectiveness of DHS grants fOT
    mitigating risks to Anntrak rail stations. The OIG's objective was to determine whether DHS
    ensures that recipients of the Transit Security Grant Program (TSGP) and the Intercity Passenger
    Rail Security Grant Program (lPRSGP), as a component of the TSGP, mitigate high-priority
    security vulnerabilities at Amtrak rail stations and whether the grant recipients coordinate risk
    mitigation projects to prevent duplication and avoid uneconomical use of grant funds.

    The OlG concluded that grant recipients coordinate risk mitigation projects at high-risk rail
    stations, thereby preventing duplication and avoiding uneconomical use of funds. However,OIG
    also concluded that critical vulnerabilities cited in risk assessments conducted by Amtrak remain.
    As a result, the traveling puhlic may be at risk to a potential terrorist attack. The OIG stated that
    vulnerabilities remain because of the following:
             TSA not requiring Amtrak to develop a system-wide security plan addressing its highest
              ranked vulnerabilities;
          • TSA approving An1trak investment justifications for lower-risk vulnerabilities; and




                       DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                                      Page 20
 

Appendix B
Management Comments to the Draft Report

       •    TSA not having internal roles and responsibilities documented for their role during the
            award process (funding priority development and project approval)

   The OIG audit team also recognized thatlhe cooperative agreement approach allows Amlrak to
   use grant funds on lower priority projects at critical assets where Amtrak faces obstacles beyond
   its control, and therefore cannot implement higher priority projects at those critical assets.

   The draft report issued by OIG includes two recommendations:

       I. Require the Transportation Sector Network Management, Mass Transit and Passenger
          Rail Division, to work closely with Amtrak to establish a corrective action plan that
           ensures decisions to fund Amtrak rail station remediation projects focus on mitigating the
           highest vulnerabilities identified by previous risk assessments. The plan should include
           the following:
               • Preliminary strategies and designs specifying the identification and commitment
                   of all interesled parties, 10 be presented during Ihe grant application process to
                   facilitate prompt mitigation efforts:
               • Details on the amount of funding needed to address the most critical
                  vulnerabilities~ and
              •   Milestones for Ihe timely approval of mitigation projects.

      2.. Ensure that the Transportation Sector Network Management. Mass Transit and Passenger
          Rail Division, creates and reports internal procedures that describe how the agency will
          carry out its roles and responsibilities in the grant award process for ensuring that Amtrak
           and other grant recipients address the highest priority security vulnerabilities.

   DHS appreciates OIG's work in completing this audit and will use the infomlation in Ihe audit       10
   assist our ongoing efforts to improve the efficiency and effectiveness of the grant programs.
   DHS is already working to resolve the issues identified in the audit by implementing solutions
   that address the recommendalions contained in the report. However, there are key points thatlhe
   report does not discuss, which. without the proper context. could lead to incomplete conclusions.

   Operational Activities are a Key Component of Layered Security Approach. DHS has worked
   closely with Amtrak to enhance their operational activities to complement and/or supplement
   capital projects. Operational activities include canine teams, mobile explosives detection
   screening teams. training. and public awareness campaigns. The draft report asserts that station
   hardening measures are "more critical" mitigation efforts because they can prevent or mitigate
   the impact of terrorist attacks, but the role of operational measures is just as important in critical
   infrastructure protection. 1n cases where capital projects cannot be undertaken or will take
   several months to implement (including for the reasons mentioned below), operational activities,
   including unpredictable deterrence measures. provide an effective deterrent and act as a
   mitigating effort for critical asset~. Amtrak invests significant internal resources. as well as
   1PRSGP resources, for operational activities including mobile screening teams. canine teams.
   public awareness campaigns. intelligence gathering and analysis. and employee training.




                       DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                                    Page 21
 

Appendix B
Management Comments to the Draft Report

   Environmental and Historical Preservation Considerations. The report's primary concjusions
   may lead to the inaccurate conclusion that DHS and Amtrak are intentionally funding lesser
   vulnerabilities at the expense of more critical ones. As set forth above, the report provides three
   primary reasons why Amtrak has not mitigated certain critical vulnerabilities. Because certain
   critical vulnerabilities cannot be addressed (e.g. because Amtrak does not own all of their
   stations), DHS and Amtrak believe it reasonable to use the funding to reduce other
   vulnerabilities rather than leaving these-albeit lesser-vulnerabilities remaining by returning
   the grant funding to the Treasury. In this way, DHS and Amtrak ensure that all grant funding is
   used to reduce vulnerabilities, which makes the public more secure by using this process.

   While acknowledging that Amtrak encounters obstacles in addressing critical vulnerabilities, the
   report's primary conclusions do not consider that critical vulnerabilities have not been addressed
   because of envirorunental and historic preservation considerations. Specifically, Amtrak requires
   approval from Historic Preservation Offices and other related entities if the project requires
   ground disturbance, or if it requires installation on historic/older assets. If these approvals are not
   provided for a project, Amtrak is statutorily precluded from funding the project.

   DHS and Amtrak Engage in Security Planning and Corrective Action Discussions. Also, TSA
   began conducting a Baseline Assessment for Security Enhancement (BASE) review for the entire
   system in March 201 ). DHS and Amtrak have continuous discussions regarding security
   planning and mitigation activities through grant-funded projects even though grant guidance did
   not require Amtrak to develop a formal security plan or corrective action plan. Forthcoming
   regulations will require Amtrak to develop a formal security plan with corrective actions.
   Nonetheless, DHS still reviews critical vulnerabilities with Amtrak throughout each grant cycle
   to determine their feasibility for funding, including reviewing and discussing mitigation options
   for the assets on Amtrak's security "quilt." In these ways, DHS engages in strategic planning
   and corrective action discussions with Amtrak for mitigating critical VUlnerabilities.

   Cooperative Agreement Approach Enhances Security Discussions and Project Approvals. DHS
   implemented, and has continued to use, the cooperative agreement (CA) approach for grantees in
   the highest-risk regions, including Amtrak, since the fiscal year (F¥) 2007 grant process to
   facilitate security and project discussions. The CA approach allows for continuous and open
   dialogue between DHS and potential grantees, where a traditional grant limits federal agency
   participation. When this approach was first implemented in 2007, DHS's review and approval of
   projects did impact the performance period of the grant. TSA has since streamlined its processes
   so that the CA process no longer affects the grant period of performance, provided the projects
   are submitted for review in a timely manner. This streamlined CA approach has reduced the
   time between formal submission of a proposed project and approval because it allows for open
   and continuous discussion of the project before fannal submission. This open and continuous
   dialogue ensures that a quality proposal is submitted the first time, thereby avoiding the time­
   consuming review of multiple iterations through a formal "submit-review-feedback-resubmit"
   process. This approach also allows DHS to be flexible when national or local priorities change
   or new needs emerge, as was the case with the FY 2009 award. (After the FY 2009 award was
   made, Amtrak's leadership revised its security priorities, which concomitantly adjusted its slate
   of projects. While it took Amtrak until July 2010 to finalize its project submissions, TSA and
   FEMA were able to review and approve them within a matter of days. Without the CA approach,




                      DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                                  Page 22
 

Appendix B
Management Comments to the Draft Report

 it would have been more difficult and time consuming for Amtrak to have been able to adjust
 grant projects to meet changing priorities. In addition, DHS would have had difficulty in
 maintaining close communication with Amtrak during this period, as the stipulations of a grant
 versus a cooperative agreement prevent open, continuous dialogue between DHS and grantees.
 Therefore, in this situation, the CA process allowed for speedy project approvals once the final
 project submission was received.)

 FEMA is Responsible for All Fiduciary Activities and Management Oversight Related to the
 Grant Programs. TSA provides the surface transportation security programmatic subject matter
 expertise for the grant programs, but FEMA is responsible for administering grant awards and
 ensuring compliance with all applicable laws, regulations, and policies, including Office of
 Management & Budget circulars and financial management standards. FEMA has legal
 responsibility to ensure that grants are awarded in alignment with the circulars and standards.

 DHS appreciates OIG's efforts on ensuring security grants are coordinated efficiently and used
 effectively to reduce vulnerabilities at critical assets identified through vulnerability assessments
 and security plans, and, overall, believes OIG's recommendations will enhance these programs.
 DHS has already begun to implement actions to address the recommendations contained in the
 report. Our specific responses to the two recommendations follow.

 Recommendation #1: Require the Transportation Sector Network Management, Mass
 Transit and Passenger Rail Division, work closely with Amtrak to establish a corrective
 action plan that ensures decisions to fund Amtrak rail station remediation projects focus
 on mitigating the highest vulnerabilities identified by previous risk assessments. The plan
 should include:
         • Preliminary strategies and designs specifying the identification and
             commitment of aU interested parties, to be presented during the grant
             application process to facilitate prompt mitigation efforts,
         • Details on the amount of funding needed to address the most critical
             vulnerabilities,
         • Milestones for the timely approval of mitigation projects.

 DDS concurs with this recommendation. The TSA Office of Transportation Sector Network
 Management (TSNM), Mass Transit and Passenger Rail Security (MTPRS) Division is engaged
 with Amtrak. to develop a comprehensive security plan including corrective actions.

 TSA is actively working on issuing a security plan regulation, which would cover Amtrak, as
 required by the Implementing Recommendations ofthe 9/11 Commission Act of2007 (public
 Law 110-53). Once complete, this regulation will serve as the basis for DHS's coordination with
 Amtrak in developing their system-wide security plan. In the interim, the TSNMlMTPRS
 Division is already working closely with Amtrak in conducting a BASE review for the entire
 system, which was initiated in March 2011. The plan is to conduct one regional assessment per
 year, complete the entire system over a 3-year timeframe, and then reassess. This approach puts
 Amtrak on the same 3-year cycle of BASE reviews as other agencies. The BASE review for the
 Northeast Corridor has already begun. The BASE review, along with the foundation Amtrak has
 already built through their prioritization "quilt" and previous site and system assessments, will




                      DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                                 Page 23
 

Appendix B
Management Comments to the Draft Report

identify vulnerability gaps that need to be addressed. TSNMIMTPRS will work with Amtrak to
take the results of the BASE to infonn a comprehensive security plan that will include strategies,
designs, and costed mitigation efforts. Further, we will include, as part of our internal
procedures (per recommendation #2 below), perfonnance metrics to ensure the timely approval
of Amtrak security projects.

Recommendation #2: Ensure the Transportation Sector Network Management, Mass
Transit and Passenger Rail Division, creates aod reports internal procedures that describe
how tbe ageDcy will carry ODt its roles aDd respoDsibilities in tbe graDt award process for
ensuring that Amtrak and otber graDt recipients address tbe bigbest priority security
vulnerabilities.

OHS concurs witb tbis recommendation. Work on this effort is already underway. FEMA and
TSA finalized a Memorandum of Agreement (MOA) in March 2011, outlining the roles and
responsibilities of each agency in managing surface transportation grant programs, including
TSGP and lPRSGP. TSNMlMTPRS will use the MOA as a starting point in creating internal
procedures to clearly document how TSA will carry Ollt its roles and responsibilities that are
outlined in the FEMNTSA MOA. including the development of funding priorities, project
selection criteria, and award recommendations. TSNMlMTPRS aims to have these procedures
complete for the FY 2012 grants cycle.




                      DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                                Page 24
 

Appendix C
Photos of Some Remaining Vulnerabilities




                 DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                           Page 25
 

Appendix D
Major Contributors to this Report

                    Patrick O’Malley, Director
                    Robert Ferrara, Audit Manager
                    Elizabeth Clark, Auditor in Charge
                    Christopher Byerly, Program Analyst
                    Steffanie Moore, Program Analyst
                    Kristine Odina, Program Analyst
                    Barry Bruner, Independent Referencer




                 DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                           Page 26 

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      DHS Audit Liaison

                      Transportation Security Administration

                      OIG Audit Liaison

                      Federal Emergency Management Agency

                      Administrator
                      OIG Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                 DHS Grants Used for Mitigating Risks to Amtrak Rail Stations 


                                           Page 27
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
